App. 1
RENDERED: SEPTEMBER 27, 2018
TO BE PUBLISHED
Supreme Court of Kentucky
2017-SC-000277-DG
NORTHERN KENTUCKY AREA
DEVELOPMENT DISTRICT
V.

APPELLANT

ON REVIEW FROM COURT OF APPEALS
CASE NO. 215-CA-001167
BOONE CIRCUIT COURT NO. 14-CI-01622

DANIELLE SNYDER

APPELLEE

OPINION OF THE COURT
BY CHIEF JUSTICE MINTON
AFFIRMING AND REMANDING
Kentucky Revised Statute (“KRS”) 336.700(2) prohibits employers from conditioning employment on an
existing employee’s or prospective employee’s agreement to “waive, arbitrate, or otherwise diminish any
existing or future claim, right, or benefit to which the
employee or person seeking employment would otherwise be entitled. . . .” When Northern Kentucky Area
Development District (“NKADD”) conditioned Danielle Snyder’s continued employment on her agreement to arbitrate any dispute that may arise between
them, that agreement violated KRS 336.700(2). As a
result, the arbitration agreement between NKADD
and Snyder—the enforcement of which is the basis of
the case before us today—is unenforceable as a matter
of state statutory law.

App. 2
NKADD correctly asserts that the Federal Arbitration Act (“FAA”)1 broadly prohibits discrimination
against arbitration agreements. It then argues that
the FAA preempts the operation of KRS 336.700(2) under the facts of this case. But, rejecting NKADD’s argument, we hold that no such discrimination occurred
here because KRS 336.700(2) does not prohibit arbitration agreements, limit the power of persons to enter
voluntarily into arbitration agreements, or single out
arbitration agreements in any way. Correctly viewed,
KRS 336.700(2) is an anti-discrimination statute that
prohibits employers from conditioning employment
on an agreement to, not only arbitration, but also any
waiver or diminution of the employee’s existing or
future rights or claims for benefits arising out of employment. So, on discretionary review, we affirm for different reasons the Court of Appeals’ decision that
affirmed the trial court’s order denying NKADD’s motion to compel enforcement of the arbitration agreement. And we remand this case to the trial court for
further proceedings consistent with this opinion.
I.

BACKGROUND.

NKADD is a government entity created under
KRS 147A.050 et. seq. It is funded by taxpayers to administer social programs in an eight-county area of
Northern Kentucky. It receives federal funds for various social programs, including an elder-abuse program,
a long-term-care ombudsman program, and a family
1

9 U.S.C. 1, et seq.

App. 3
caregiver program. Additionally, using federal funds,
NKADD partners with local food banks to distribute
food to lower-income households and administers a
small-business loan fund. It also provides employment
services through its Northern Kentucky Workforce Investment Board to supply workers to businesses and
participates in a regional public-private partnership
working to supply employees to businesses in the
Northern Kentucky-Greater Cincinnati area.
Danielle Snyder worked for NKADD as an administrative purchasing agent. While employed there,
Snyder had to sign an arbitration agreement mandating arbitration of any dispute she had with NKADD.
The agreement makes clear, “As a condition of employment with the District, you will be required to sign
the attached arbitration agreement.” Additionally, “You
may revoke your acceptance of the agreement by communicating your rejection in writing to the District
within five days after you sign it. However, because the
agreement is a condition of employment, your employment and/or consideration for employment will end via
resignation or withdrawal from the process.”
Snyder filed an action in the trial court asserting
claims under the Kentucky Whistleblower Act (“KWA”)
and the Kentucky Wages and Hours Act (“KWHA”) after NKADD terminated her employment. NKADD filed
a motion to stay the proceedings and compel arbitration based on the arbitration agreement. The circuit
court denied NKADD’s motion, and NKADD appealed.

App. 4
The Court of Appeals affirmed the trial court’s denial, explaining that NKADD is a creature of statute,
and the wording of two Kentucky statutes, which purportedly prohibit an employer’s conditioning employment on the employee’s agreement to arbitrate any
disputes, makes ultra vires any arbitration contract by
NKADD forcing arbitration in this way. Therefore, the
Court of Appeals reasoned, the FAA cannot compel arbitration between the parties because NKADD never
had the authority to enter into an arbitration agreement in the first place, and “federal law does not preempt the authority of the Commonwealth to deny the
authority of its [agencies] to enter into arbitration
agreements.”
II.

ANALYSIS.

We granted NKADD’s motion for discretionary
review to consider whether the FAA preempts Kentucky’s legislative enactment to preserve employee
rights, KRS 336.700(2), because it seeks, among other
broadly stated areas, to prohibit employers from conditioning employment on the employee’s agreement to a
contract provision mandating arbitration in the event
of a dispute between them. We ultimately conclude
that the statute does not run afoul of the FAA under
the facts of this case. But first, we must determine
whether NKADD truly does not have the power to condition employment on agreement to arbitration.

App. 5
A. NKADD and its power.
“[A]dministrative agencies have no inherent authority and may exercise only such authority as may be legislatively conferred.”2 It is axiomatic that NKADD, as
a state agency, only has the power that the General Assembly gives it.
NKADD exists by virtue of KRS 147A.050(7). The
precise legal term to describe the creature NKADD
may be elusive, but the parties and the lower courts
have not quibbled over the fact that NKADD is a Kentucky state agency.
Like all area development districts, NKADD is operated by state employees under KRS 147A.060 and
147A.070 and receives taxpayer funding. The governing body of NKADD, its board of directors, entirely
derives its power from KRS 147A.080 and 147A.090,
the statutes that detail all of the power that the General Assembly has granted to NKADD. Among other
powers, the board of directors may “[m]ake and enter
into all contracts or agreements necessary or incidental to the performance of its duties”3 and “[p]erform
such other and further acts as may be necessary to
carry out the duties and responsibilities created by
KRS 147A.050 to 147A.120.”4

2

Herndon v. Herndon, 139 S.W.3d 822, 826 (Ky. 2004) (citing
Linkous v. Darch, 323 S.W.2d 850 (Ky. 1959); Robertson v. Schein,
204 S.W.2d 954 (Ky. 1947)).
3
KRS 147A.080(4).
4
KRS 147A.080(12).

App. 6
The text of these statutes alone does not explicitly
allow NKADD to mandate agreement to arbitration as
a condition of employment. At best, the power to condition employment on agreement to arbitration may be
implied by the broad language used in the statutory
provisions outlining NKADD’s powers and responsibilities.
Regardless, we find explicit statutory limitation
on the ability of NKADD to condition employment on
agreement to arbitration. KRS 336.700(2) states:
Notwithstanding any provision of the Kentucky
Revised Statutes to the contrary, no employer
shall require as a condition or precondition
of employment that any employee or person
seeking employment waive, arbitrate, or otherwise diminish any existing or future claim,
right, or benefit to which the employee or person seeking employment would otherwise be
entitled under any provision of the Kentucky
Revised Statutes or any federal law.
KRS 336.700(1) defines employer to mean “any person,
either individual, corporation, partnership, agency, or
firm, that employs an employee.”
The parties do not challenge the applicability of
KRS 336.700(2) to NKADD in this case. Indeed, KRS
147.080(10) deems an “area development district organization” a “public agency,” which appears to fall
within the ambit of the definition of employer in KRS
336.700(1), which includes “agenc[ies].”

App. 7
Although one could argue that the definition of
employer in KRS 336.700(1) appears to contemplate
private, not public, entities,5 we dealt with a similar
situation in Madison County Fiscal Court v. Kentucky
Labor Cabinet.6 There, we considered the exact same
definition of employer7 for the purpose of the applicability of KRS 337.285, the wage and hour requirements
for overtime pay, to public entities, including the Madison County Fiscal Court, Central Campbell County
Fire District, and ten municipal corporations.8 We concluded “municipal corporations” fell within the ambit
of “corporation[s]” as included within the definition of
employer.9 In conformance with the spirit of Madison
County, we find NKADD, an agency of the Commonwealth, constitutes an “agency” contemplated by the
definition of employer in KRS 336.700(1) such that
KRS 336.700(2) applies.

5

Further evidence of this fact is the General Assembly’s recent amendment of KRS 336.180(2)’s definition of employer, which
now encompasses “public employer.” KRS 336.180(2) applies to
the entirety of Chapter 336 “unless the context requires otherwise.” Because of the General Assembly’s recent amendments,
KRS 336.700(1) now appears to be superfluous if we read it to encompass “public employers.” However, because the events of this
case arose before the amendment, and because the parties have
not raised this issue before us, we decline to entertain this argument.
6
352 S.W.3d 572 (Ky. 2011).
7
See KRS 337.010(1)(d).
8
Madison County, 352 S.W.3d at 573.
9
Id. at 576.

App. 8
We conclude that Kentucky state-created entities
do not have the power to compel, as a condition of employment, any employee agree to arbitrate any claim,
right, or benefit he or she may have against NKADD.
Although NKADD appears to have broad power to
enter into agreements and define the terms of those
agreements, KRS 336.700(2) acts expressly prohibits
NKADD from conditioning employment on an agreement to arbitrate.
We therefore conclude that the General Assembly
intended to forbid NKADD from having the power to
condition employment on agreement to arbitration by
the express language of KRS 336.700(2).10
When a government entity acts beyond its power
by violating an express statutory prohibition, its actions are said to be “ultra vires . . . and therefore . . .
void.”11 KRS 336.700(2) is a direct limitation on the
power of state agencies to condition employment of
their state employees on agreement to an arbitration
clause; in fact, this statute outright prohibits such
act.12 Because NKADD, a state agency affected by the
10

Our holding in this regard does nothing to displace the
power of NKADD to reach a mutual agreement with an employee
to arbitrate a dispute. KRS 336.700(2) only prevents conditioning
employment on agreement to arbitration.
11
Stierle v. Sanitation Dist. No. 1 of Jefferson Cty., 243 S.W.2d
678, 680 (Ky. 1951) (citing Walker v. City of Richmond, 189 S.W.
1122 (Ky. 1916); Fabric Fire House Co. v. City of Louisa, 69 S.W.2d
726 (Ky. 1934)).
12
Snyder also argues that KRS 417.050(1) prohibits NKADD
from conditioning employment on agreement to arbitration. However, a plain reading of that statute, coupled with the Court of

App. 9
prohibitions of KRS 336.700(2), never had the power to
force Snyder to agree to arbitrate disputes arising between them as a condition of her employment, the resulting arbitration agreement is void.
B. The FAA does not preempt KRS 336.700(2)
in this case.
Although we have determined that NKADD acted
beyond its power when forcing Snyder to agree to arbitrate disputes arising between them as a condition of
her employment, we nonetheless must determine if the
FAA nullifies this conclusion because of its preemptive
effect on laws discriminating against arbitration.
The U.S. Supreme Court defined the parameters of
the FAA, the law at issue in this case, most recently in
Kindred Nursing Centers Ltd. Partnership v. Clark.13
“The Federal Arbitration Act makes arbitration agreements ‘valid, irrevocable, and enforceable, save upon
such grounds as exist at law or in equity for the revocation of any contract.’ ”14 “[9 U.S.C. § 2] establishes an
equal-treatment principle: A court may invalidate an
arbitration agreement based on ‘generally applicable
Appeals’ analysis in Jacob v. Dripchak, 331 S.W.3d 278, 279 (Ky.
App. 2011), leads us to believe otherwise. The Court of Appeals in
Jacob persuasively explained that KRS 417.050(1) only proclaims
that Chapter 417, Kentucky’s Uniform Arbitration Act, does not
apply to arbitration agreements between employers and employees, not that arbitration agreements between employers and employees are outright prohibited. Jacob, 331 S.W.3d at 279.
13
137 S.Ct. 1421 (2017).
14
Id. at 1426 (quoting 9 U.S.C. § 2).

App. 10
contract defenses’ like fraud or unconscionability, but
not on legal rules that ‘apply only to arbitration or that
derive their meaning from the fact that an agreement
to arbitrate is at issue.’ ”15 “The FAA thus preempts any
state rule discriminating on its face against arbitration—for example, a ‘law prohibit[ing] outright the arbitration of a particular type of claim.’ ”16 “And not only
that: The Act also displaces any rule that covertly accomplishes the same objective by disfavoring contracts
that (oh so coincidentally) have the defining features
of arbitration agreements.”17
The broad preemptive effect of the FAA is undeniable. But we fail to see how a law, in this case KRS
336.700(2), that does not actually attack, single out, or
specifically discriminate against arbitration agreements must yield to the FAA.
We cannot read KRS 336.700(2) as evidencing hostility to arbitration agreements. KRS 336.700(2) does
not prevent NKADD, any state entity, or any private
entity, from agreeing to arbitration. KRS 336.700(2)
simply prevents NKADD from conditioning employment on the employee’s agreement to arbitration.
This is the key distinction supporting the reason the
FAA does not apply to preempt KRS 336.700(2). That
statute only proscribes conditioning employment on
15

Kindred Nursing, 137 S.Ct. at 1426 (citing AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 339 (2011)).
16
Kindred Nursing, 137 S.Ct. at 1426 (citing Concepcion, 563
U.S. at 341).
17
Kindred Nursing, 137 S.Ct. at 1426.

App. 11
agreement to arbitration, not the act of agreeing to arbitration.
Moreover, KRS 336.700(2) does not single out arbitration clauses. KRS 336.700(2) prevents the conditioning of employment on an employee’s agreement to
waive or otherwise diminish “any existing or future
claim, right, or benefit to which the employee or person
seeking employment would otherwise be entitled. . . .”18
This not only means that an employer cannot force the
employee to agree to arbitration on penalty of termination but also means that an employer cannot force
an employee to, for example, waive all rights to file
KWA claims against the employer. In this way, KRS
336.700(2) is a law of general applicability that prevents employers from conditioning employment on the
employee’s agreement to forego the exercise of all
rights against the employer.
KRS 336.700(2) is not a law that discriminates
or singles out arbitration clauses. It is a law that prohibits employers from firing or failing to hire on the
condition that the employee or prospective employee
waive all existing rights that employee would otherwise have against the employer. More importantly,
KRS 336.700(2) does nothing to discriminate against
arbitration clauses—it only prevents an employer from
terminating or refusing to hire an individual who refuses to agree to such a clause.

18

(emphasis added).

App. 12
Even the broadest construction of the reach of
the FAA would not allow employers to fire or hire an
employee or prospective employee based on that employee’s willingness or unwillingness to sign an arbitration agreement. It is true that the U.S. Supreme
Court recently expanded the reach of the FAA: “[T]he Act
cares not only about the ‘enforce[ment]’ of arbitration
agreements, but also about their initial ‘valid[ity]’—
that is, about what it takes to enter into them. . . . A
rule selectively finding arbitration contracts invalid
because improperly formed fares no better under the
Act than a rule selectively refusing to enforce those
agreements once properly made.”19
As stated, however, KRS 336.700(2) does not “selectively find[ ] arbitration contracts invalid”; rather,
KRS 336.700(2) prevents an employer from entering
into any agreement whatsoever that conditions employment on the employee’s agreement to waive any
and all rights against the employer. Moreover, KRS
336.700(2) does not invalidate arbitration contracts because they are arbitration contracts; KRS 336.700(2)
only invalidates arbitration contracts when the employer evidences an intent to fire or refuse to hire an
employee because of that employee’s unwillingness to
sign such a contract. This is not an attack on the arbitration agreement—it is an attack on the employer for
basing employment decisions on whether the employee
is willing to sign an arbitration agreement.

19

Kindred Nursing, 137 S.Ct. at 1428.

App. 13
A comparison to the rule at issue in Kindred Nursing may be of benefit: “[A]n agent c[an] deprive her
principal of an ‘adjudication by judge or jury’ only if the
power of attorney ‘expressly so provides.’ ”20 The U.S.
Supreme Court identified that this rule “fails to put arbitration agreements on an equal plane with other
contracts” and “singl[ed] out [arbitration agreements]
for disfavored treatment” because “the [Kentucky Supreme Court] nowhere cautioned that an attorney-infact would not need a specific authorization to, say, sell
her principal’s furniture or commit her principal to a
non-disclosure agreement.”21 Finally, the U.S. Supreme
Court noted, “A rule selectively finding arbitration contracts invalid because improperly formed fares no better under the Act. . . .”22
The preempted rule at issue in Kindred Nursing
stated that a person acting under a power-of-attorney
may never enter into an arbitration agreement on
the principal’s behalf unless the principal provides express written assent to such. The rule singled out arbitration agreements because the rule only required
specific written authorization for an agent acting under a power-of-attorney to enter into an arbitration
agreement and not any other type of agreement.
This is different from KRS 336.700(2). The statute does not single out arbitration agreements—it
makes clear that any contract that waives or limits an
20
21
22

Id. at 1426.
Id. at 1427.
Id. at 1428.

App. 14
employee’s rights against the employer is void if employment was predicated on signing the agreement.
Apart from arbitration agreements, this would include,
to name a couple of examples, an agreement whereby
the employee waives the ability to file a KWA claim
against the employer, or an agreement that limits the
amount of damages the employee can recover against
the employer.
KRS 336.700(2) is not an anti-arbitration clause
provision—it is an anti-employment discrimination
provision. KRS 336.700(2) uniformly voids any agreement diminishing an employee’s rights against an employer when that agreement had to be signed by the
employee on penalty of termination or as a predicate
to working for that employer. As such, we hold that the
FAA does not preempt KRS 336.700(2) because it does
not discriminate against arbitration agreements but
rather the conditioning of employment on an employee’s agreement to arbitrate.
III.

CONCLUSION.

NKADD acted beyond the scope of its power when
it conditioned Snyder’s employment on her willingness
to sign an arbitration agreement. So NKADD’s act of
doing so is beyond the limits of its legislative grant of
authority, rendering the arbitration agreement itself
void. The FAA does not mandate a contrary holding because it does not preempt KRS 336.700(2) in this case.
We affirm the result reached by the Court of Appeals
for the reasons stated in this opinion and remand this

App. 15
case to the trial court for further proceedings consistent with this opinion.
Minton, C.J., Cunningham, Hughes, Keller, Venters and Wright, JJ., sitting. All concur. VanMeter, J.,
not sitting.
COUNSEL FOR APPELLANT:
Jennifer H. Langen
Jeffrey C. Mando
Adams, Stepner, Woltermann & Dusing, PLLC
COUNSEL FOR APPELLEE:
Shane C. Sidebottom
Ziegler & Schneider, P.S.C.

App. 16
RENDERED: MAY 12, 2017; 10:00 A.M.
TO BE PUBLISHED
Commonwealth of Kentucky
Court of Appeals
NO. 2015-CA-001167-MR
NORTHERN KENTUCKY AREA
DEVELOPMENT DISTRICT

APPELLANT

APPEAL FROM BOONE CIRCUIT COURT,
v. HONORABLE RICHARD A. BRUEGGEMANN,
JUDGE
ACTION NO. 14-CI-01622
DANIELLE SNYDER

APPELLEE

OPINION
AFFIRMING
** ** ** ** **
BEFORE: KRAMER, CHIEF JUDGE; NICKELL AND
THOMPSON, JUDGES.
THOMPSON, Judge. Danielle Snyder filed an action in
the Boone Circuit Court asserting claims under the
Kentucky Whistle Blower Act and the Kentucky Wages
and Hours Act after her employer, the Northern Kentucky Area Development District (NKADD), terminated her employment. NKADD filed a motion to stay
the proceedings and compel arbitration based on an arbitration agreement executed by it and Snyder as a
condition of Snyder’s employment. The circuit court
denied the motion and NKADD appealed. The issues
on appeal concern the application of the Federal

App. 17
Arbitration Act (FAA); whether the FAA pre-empts
Kentucky statutory law which prohibits arbitration
as a condition of employment as applied to a public
employment contract; and whether the arbitration
agreement is otherwise void. We conclude NKADD
did not have authority to enter into the arbitration
agreement as a condition of Snyder’s employment and
affirm.
NKADD is a political subdivision created pursuant to Kentucky Revised Statutes (KRS) 147A.050 et
seq. Pursuant to KRS 147A.070(2)(a), it has the authority to “employ such staff members as may be required for the operations of the district [.]” The
legislature also expressly conferred the power upon
NKADD to “[s]ue and be sued” and to “[m]ake and enter into all contracts or agreements necessary or incidental to the performance of its duties[.]” KRS
147A.080 (2) and (4).
NKADD is funded by taxpayers for the purpose of
administering social programs in an area of Northern
Kentucky comprising eight counties. It receives federal
funds for various social programs including an Elder
Abuse Program, a Long Term Ombudsman Program,
and a National Family Caregiver Program. Additionally, through federal funds, NKADD partners with local food banks to distribute food to lower-income
households and administers a small business lending
fund. NKADD also provides services through its
Northern Kentucky Workforce Investment Board to
supply workers to businesses and participates in a regional public-private partnership working to supply

App. 18
businesses with employees needed to grow businesses
in Kentucky, Indiana, and Ohio. In Fiscal Year 2014,
federal funds totaled $4,221,895, nearly one-quarter of
NKADD’s total revenues.
Snyder worked for NKADD as an administrative
purchasing agent. In connection with her employment,
on October 18, 2011, Snyder signed an arbitration
agreement which provides:
This agreement applies to all legal claims or
disputes which have not been or were not resolved by you and the District informally in
the normal course of business. Accordingly,
you and the District are required to use this
Agreement to resolve employment related legal disputes. By accepting employment with
the District, you will have accepted this
Agreement under the Federal Arbitration Act,
and it will be binding on claims relating to
your employment.
The arbitration agreement identifies the claims subject to arbitration, including:
Any and all employment claims under. . . . the Kentucky Wages and Hours Act,
KRS 337.010 et seq.; . . . any statutory claims
relating to public employment, and any claims
of employment discrimination, retaliation, . . .
wrongful termination . . . claims or demands
arising under . . . public policy, the common
law, or any federal state or local statute, ordinance, regulation, or constitutional provision

App. 19
. . . or other . . . controversies of every kind or
description . . .
On August 11, 2014, NKADD terminated Snyder’s
employment. Snyder filed this action in the Boone Circuit Court asserting NKADD violated the Kentucky
Whistleblower Act, KRS 61.102 et seq., and the Kentucky Wages and Hours Act, KRS 337.285. NKADD
filed a motion to stay the proceedings and compel arbitration arguing that the arbitration agreement was
valid and enforceable and the FAA pre-empted any
contrary state law.
The Boone Circuit Court denied the motion.
NKADD renewed its motion and included the affidavit
of its executive director, Lisa Cooper. In her affidavit,
Cooper attested that Snyder was at all times an Indiana resident and that NKADD and Snyder regularly
engaged in interstate commerce. She described the numerous federal agencies that provided funding for
NKADD’s operations, established that NKADD regularly purchased supplies and other items from out-ofstate vendors and that Snyder, as purchasing agent for
NKADD, routinely placed these orders.
After the original judge recused, the case was reassigned to another division of the Boone Circuit
Court. In addition to ruling that the arbitration agreement was unenforceable under Kentucky statutory
law, the circuit court ruled that Snyder’s claims under
the Whistleblower Act are wholly within the province
of the Commonwealth and its police powers. It further held that because Snyder’s claims do not have

App. 20
substantial effect on interstate commerce, application
of the FAA would violate the Tenth Amendment to the
United State Constitution. For slightly different reasons, we affirm.
Preliminary to our discussion, we note that although an order denying arbitration is interlocutory,
“an ordinary appeal at the close of litigation will not
often provide an adequate remedy for the wrongful denial of a right to arbitrate[.]” Conseco Fin. Servicing
Corp. v. Wilder, 47 S.W.3d 335, 340 (Ky.App. 2001). Consequently, KRS 417.220(1)(a) provides that an appeal
may be taken from “[a]n order denying an application
to compel arbitration made under KRS 417.060[.]”
Having stated our basis for exercising jurisdiction, we
address the issues presented.
Section 250 of the Kentucky Constitution provides: “It shall be the duty of the General Assembly to
enact such laws as shall be necessary and proper to decide differences by arbitrators, the arbitrators to be appointed by the parties who may choose that summary
mode of adjustment.” To comply with that duty, the
General Assembly adopted the Uniform Arbitration
Act.
KRS 417.050 provides:
A written agreement to submit any existing
controversy to arbitration or a provision in
written contract to submit to arbitration any
controversy thereafter arising between the
parties is valid, enforceable and irrevocable,
save upon such grounds as exist at law for the

App. 21
revocation of any contract. This chapter does
not apply to:
(1) Arbitration agreements between employers and employees or between their respective representatives[.]
(emphasis added). Not only does Kentucky statutory
law exclude employment contracts from the Arbitration Act, but our statutory law prohibits employers
from making an agreement to arbitrate rights arising
under state and federal law as a condition of employment. KRS 336.700(2) states:
Notwithstanding any provision of the
Kentucky Revised Statutes to the contrary, no
employer shall require as a condition or precondition of employment that any employee or
person seeking employment waive, arbitrate,
or otherwise diminish any existing or future
claim, right, or benefit to which the employee
or person seeking employment would otherwise be entitled under any provision of the
Kentucky Revised Statutes or any federal law.
Based on KRS 417.050(1) and KRS 336.700(2), the
arbitration agreement executed as a condition of
Snyder’s employment would be void as contrary to this
Commonwealth’s statutory law. Nevertheless, NKADD
argues the FAA, 9 U.S.C. § 1 et seq., pre-empts Kentucky statutory law and, therefore, Snyder’s claims under the Whistleblower Act and the Wages and Hours
Act must be submitted to arbitration.
The pre-emption doctrine is based on the Supremacy Clause of Article VI clause 2 of the United States

App. 22
Constitution, which provides that the “Laws of the
United States . . . shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.” Under the
doctrine, to the extent Kentucky statutory law conflicts
with federal law, it is pre-empted.
9 U.S.C. § 2 of the FAA states:
A written provision in any . . . contract evidencing a transaction involving commerce to
settle by arbitration a controversy thereafter
arising out of such contract or transaction . . .
shall be valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in
equity for the revocation of any contract.
By enacting Section 2, Congress declared a national
policy favoring the arbitration of disputes when the
parties have agreed to that method of dispute resolution. Preston v. Ferrer, 552 U.S. 346, 353, 128 S.Ct. 978,
983, 169 L.Ed.2d 917 (2008). That national policy
“withdrew the power of the states to require a judicial
forum for the resolution of claims which the contracting parties agreed to resolve by arbitration.” Southland Corp. v. Keating, 465 U.S. 1, 10, 104 S.Ct. 852, 858,
79 L.Ed.2d 1 (1984). Stated simply, “[w]hen state law
prohibits outright the arbitration of a particular type
of claim, the analysis is straightforward: The conflicting rule is displaced by the FAA.” AT&T Mobility LLC
v. Concepcion, 563 U.S. 333, 341, 131 S.Ct. 1740, 1747,
179 L.Ed.2d 742 (2011).

App. 23
With the caveat that the FAA is applicable only to
a contract evidencing a transaction involving interstate commerce, the United States Supreme Court has
held that the scope of the FAA is broad. See e.g., Preston, 552 U.S. 346, 128 S.Ct. 978 (FAA pre-empts state
law granting state commissioner exclusive jurisdiction
to decide issue the parties agreed to arbitrate); Mastrobuono v. Shearson Lehman Hutton, Inc., 514 U.S. 52,
115 S.Ct. 1212, 131 L.Ed.2d 76 (1995) (FAA pre-empts
state law requiring judicial resolution of claims involving punitive damages); Perry v. Thomas, 482 U.S. 483,
107 S.Ct. 2520, 96 L.Ed.2d 426 (1987) (FAA pre-empts
state-law requirement that litigants be provided a judicial forum for wage disputes); Southland Corp., 465
U.S. 1, 104 S.Ct. 852 (FAA pre-empts state franchise
investment statute’s prohibition of arbitration of
claims brought under that statute). In Circuit City
Stores, Inc. v. Adams, 532 U.S. 105, 121 S.Ct. 1302, 149
L.Ed.2d 234 (2001), the Supreme Court held that with
the exception of transportation employees, Section 2 of
the FAA applies to all written employment contracts.
The Court noted the benefits to arbitration in the employment context, including avoidance of litigation
costs. Id. at 123, 121 S.Ct. at 1313.
In the context of private employers, this Court has
specifically held KRS 417.050(1) and KRS 336.700(2)
are pre-empted by the FAA. In Vossberg v. Caritas
Health Servs., Inc., 2004-CA-000204-MR, 2005 WL
497255, 2 (Ky.App. 2005), although we agreed “that
Kentucky law does not favor arbitration in the context
of employment disputes[,]” we held that “this matter

App. 24
has been pre-empted by the [FAA][.]” While an unpublished case is not afforded the weight of published
precedent, based on federal precedent, we see no reason to deviate from that holding.
However, simply because we agree with the result
reached in Vossberg does not mean we must reach the
same result here where the facts are readily distinguishable from Vossberg and from those cases cited by
NKADD. Pivotal to our discussion is that NKADD is
not a private employer but a public employer. Snyder
argues this fact is crucial in that NKADD’s actions
were ultra vires and render the arbitration agreement
invalid, void, and unenforceable. She contends that an
ultra vires contract is not pre-empted by the FAA because it is a general rule of contract law as opposed to
a specific law disfavoring arbitration. In other words,
Snyder submits that what is at issue is not a state law
that limits the availability of arbitration but, instead,
the general principle that a creature of statute, such as
NKADD, cannot exercise authority by contract which
has been declared illegal by the legislature.
Despite its broad scope, the threshold question of
whether a valid arbitration agreement exists is not
governed by the FAA. The FAA and the Kentucky Arbitration Act contain saving clauses providing that arbitration agreements may be revoked upon “grounds
as exist at law or in equity for the revocation of any
contract.” 9 U.S.C. 2; KRS 417.050. The United States
Supreme Court explained the meaning of the saving
clause in the FAA: “The FAA directs courts to place
arbitration agreements on equal footing with other

App. 25
contracts, but it ‘does not require parties to arbitrate
when they have not agreed to do so.’ ” E.E.O.C. v. Waffle
House Inc., 534 U.S. 279, 293-94, 122 S.Ct. 754, 764, 151
L.Ed.2d 755 (2002) (emphasis added) (quoting Volt Information Sciences, Inc. v. Board of Trustees of Leland
Stanford Junior Univ., 489 U.S. 468, 478, 109 S.Ct.
1248, 103 L.Ed.2d 488 (1989)). In this case, the question is whether NKADD had authority to enter into the
arbitration agreement.
Political subdivisions “represent no sovereignty
distinct from the state and possess only such powers
as the state through its Legislature has expressly or
impliedly conferred upon them.” City of Pineville v.
Meeks, 254 Ky. 167, 71 S.W.2d 33, 35 (1934). It is settled, that as a creation of the legislature, a political
subdivision’s “continued existence and the purview of
its authority are dependent upon the will and discretion of the Legislature.” Sanitation Dist. No. 1 of Shelby
Cty. v. Shelby Cty., 964 S.W.2d 434, 437 (Ky.App. 1998).
When a political subdivision acts in contravention of a
statute, it is said to have acted ultra vires and, generally, its actions are void. See Stierle v. Sanitation Dist.
No. 1 of Jefferson Cty., 243 S.W.2d 678 (Ky.App. 1951)
(a contract between a sewer district and sanitation district was ultra vires as to both entities and was, therefore, void). NKADD’s authority to enter into the
arbitration agreement with Snyder, if it exists at all,
must be derived from the enabling legislation because,
as a political subdivision of the state, it has only those
powers conferred on it by the legislature.

App. 26
The enabling statute applicable to the NKADD expressly confers the power to hire employees and to enter contracts and, therefore, the express power to enter
into employment contracts. Generally, the power to
contract, and to sue or be sued, conferred by statute to
government bodies includes the authority to arbitrate
disputes. “[T]he veracity of this proposition cannot be
reasonably doubted.” Southern Constructors, Inc. v.
Loudon Cty. Bd. of Educ., 58 S.W.3d 706, 716 (Tenn.
2001).
However, the implied authority to arbitrate is limited by another general principle that such power exists “in the absence of a statutory prohibition.” City of
Madison v. Frank Lloyd Wright Found., 20 Wis.2d 361,
373, 122 N.W.2d 409, 416 (1963) (quoting Power of municipal corporation to submit to arbitration, 40 A.L.R.
1370 (1926)). We conclude that although pre-empted by
federal laws, KRS 417.050(1) and KRS 336.700(2) declare an express legislative intent to deprive state
agencies and political subdivisions the power to enter
into arbitration agreements as a condition of employment. That express denial of power is not pre-empted
by any federal law, including the FAA. We find persuasive the reasoning applied in analogous cases.
In W.M. Schlosser Co. Inc. v. School Bd., of Fairfax
Cty. Va., 980 F.2d 253 (4th Cir. 1992), the court held
that under Virginia law, a local school board did not
have authority to arbitrate a dispute arising out of a
construction contract. The school board argued the
power to arbitrate was implied from the power to
contract. The Court held that the Virginia Public

App. 27
Procurement Act reflected a policy to withhold from local governments the power to arbitrate disputes by requiring disputes to be resolved by an administrative
tribunal. Id. at 256.
Addressing the pre-emption argument, the Court
held that the rule that local governmental power is
limited by the express or implied powers conferred by
the enabling statutes is not one pre-empted by the
FAA. It reasoned that it “does not single out and disproportionately burden arbitration provisions. It is a
rule of general applicability that defines and invalidates all ultra vires acts of local governing bodies.” Id.
at 259. Therefore, the Court concluded it is a “ground
[ ] as exist[s] at law or in equity for the revocation of
any contract[.]” Id. (quoting 9 U.S.C. § 2).
A similar result was reached in D.C. v. Greene, 806
A.2d 216 (D.C. 2002), which again addressed the potential conflict between a procurement code’s provisions
for resolution of contractual disputes that effectively
excluded arbitration. The Court held that although the
statute withheld from the District’s contracting officers the power to agree to arbitrate, it was not preempted by the FAA. Like any corporation or individual,
the government may refuse to arbitrate and, therefore,
the procurement code was “untouched by the FAA’s
general command that private arbitration agreements
be enforced.” Id. at 223. The Court pointed out the distinction between “the authority of a state to bar enforcement of otherwise valid arbitration agreements—
a power denied the state except insofar as § 2 [of
the FAA] permits—for the authority of a government

App. 28
contracting for goods or services in its own behalf to
refuse to agree to arbitrate disputes.” Id. at 221.
In Bank of Am., N.A. v. D.C., 80 A.3d 650 (D.C.
2013), the Court reaffirmed its holding in Greene. It
held the Procurement Practices Act “does not bar enforcement of valid arbitration agreements or impose
conditions upon such agreements not applicable to
other contracts.” Id. at 675. It only “withheld from contracting officers the authority to bind the District to
arbitration, just as any private corporation or individual might limit an agent’s contracting authority.” Id.
In this case, the Commonwealth has expressly
prohibited political subdivisions from requiring arbitration as a condition of employment, specifically including those submitting future actions for violations
of state and federal statutory rights to arbitration.
While in the private employment context federal law
prevails, that federal law does not pre-empt the authority of the Commonwealth to deny the authority of
its political subdivisions to enter into arbitration
agreements in the employment context. Consequently,
NKADD had no authority to enter into the arbitration
agreement and the trial court properly ruled it is unenforceable.
Based on the foregoing, the order of the Boone Circuit Court is affirmed.
ALL CONCUR.

App. 29
BRIEFS FOR
APPELLANT:

BRIEF FOR
APPELLEE:

Jeffrey C. Mando
Bryce C. Rhoades
Covington, Kentucky

Shane C. Sidebottom
Paul J. Wischer
Covington, Kentucky

ORAL ARGUMENT
FOR APPELLANT:

ORAL ARGUMENT
FOR APPELLEE:

Jeffrey C. Mando
Covington, Kentucky

Shane C. Sidebottom
Covington, Kentucky

App. 30
COMMONWEALTH OF KENTUCKY
BOONE CIRCUIT COURT
DIVISION I
CASE NO. 14-CI-1622
DANIELLE SNYDER

PLAINTIFF

VS.
NORTHERN KENTUCKY
AREA DEVELOPMENT
DISTRICT

DEFENDANT

ORDER
(Filed Jul. 17, 2015)
This matter is before the Court on the Renewed
Motion of Defendant Northern Kentucky Area Development District (“NKADD” or “District”) to Stay and
Compel Arbitration. The District filed its Renewed Motion on April 17, 2015, Plaintiff filed her Response in
Opposition to Defendant’s Motion on May 5, 2015, and
Defendant filed its Reply on May 11, 2015. The matter
was first noticed for a hearing on the docket for Division III but, subsequent to reassignment of this Case,1
Defendant re-noticed the matter for hearing on June 2,
2015 in Division I. This Court took the matter under
1

Defendant had previously filed a Motion for similar relief
while this Case was pending in Boone County’s Division III. The
Honorable James R. Schrand denied that Motion by an Order
dated March 3, 2015. Subsequent to Defendant’s currently pending Renewed Motion, Chief Judge Schrand entered an Order of
recusal dated May 13, 2015, and assigned the Case to this Court,
Division I.

App. 31
submission on June 3, 2015. Having considered the
memoranda filed by the parties, the Court file, arguments of counsel, and being in all ways sufficiently advised, the Court enters this Order.
Plaintiff Danielle Snyder was hired by the District
in November 2011. Initially she was hired as a receptionist but later promoted to an administrative purchasing agent. (Complaint, at ¶ 4.) Before being hired,
she was required to sign an Arbitration Agreement as
a condition of employment. The Arbitration Agreement
is dated October 18, 2011. It requires arbitration of all
employment related claims, including the Kentucky
Whistleblower Act claim asserted by Plaintiff in her
Complaint. (Defendant’s Memo., p. 1, at ¶ 1.) In late
2013, Plaintiff sent a letter to her supervisor reporting
what she believed to be unauthorized purchases made
on the District’s credit card. (Complaint, at ¶ 6.) Then,
at a District staff meeting in May 2014, Plaintiff again
expressed her concerns with regard to those purchases.
(Id., at ¶ 8.) Following this, Plaintiff was selected to attend a seminar, for which seminar she alleges her supervisors told her only “bad employees” were chosen.
In July 2014, Plaintiff sent another letter to the Executive Director reporting other “document mismanagement and unethical conduct” that she purports
occurred after she first reported “issues of NKADD
credit card fraud.” (Id., at ¶ 11.) According to Plaintiff,
she requested and was denied an opportunity to address the board members of the District directly about
her complaints. (Id., at ¶¶ 17, 23.) Plaintiff alleges the
District retaliated against her by not paying her

App. 32
overtime she was due, by suspending her without
cause, and finally discharging her when she refused to
negotiate a mutual resignation agreement. (Id., at
¶¶ 12-16, 22-23.)
At the outset, the Court notes the memoranda of
both parties are impeccably researched and written,
and appreciates the work of counsel in presenting the
conflict clearly and concisely. The District argues
Plaintiff cannot litigate her claims in this Court but,
instead, must arbitrate her claims through an arbiter
pursuant to the Federal Arbitration Act (“FAA”). There
is no dispute that the Arbitration Agreement signed by
Plaintiff requires all employment disputes to be arbitrated. There is also no dispute that the Arbitration
Agreement was signed as a condition of employment.
Plaintiff argues the Arbitration Agreement is void due
to being unconscionable and lacking consideration.
Specifically, Plaintiff points to K.R.S. § 336.700(2),
which states:
[N]o employer shall require as a condition or
precondition of employment that any employee or person seeking employment waive,
arbitrate, or otherwise diminish any existing
or future claim, right, or benefit to which the
employee or person seeking employment
would otherwise be entitled under any provision of the Kentucky Revised Statutes or any
federal law.
Boone County Circuit Court Division III previously denied Defendant’s Motion to Stay and Compel
Arbitration. In that Order, the Court determined that

App. 33
the Arbitration Agreement was unenforceable by reason of KRS § 336.700, and that Plaintiff ’s claims were
protected by the Kentucky Whistleblower Act. The
Court held that “[t]o require arbitration of Snyder’s
claim defeats the nature and intent both of the [Kentucky Whistleblower Act] and K.R.S. § 336.700.” This
Court finds the reasoning of its companion Court to be
sound and incorporates its Order herein.
However, in its Renewed Motion, the District contends that K.R.S. § 336.700 and the Kentucky Whistleblower Act are preempted under the Commerce Clause
of the federal Constitution and cannot bar enforcement
of the Arbitration Agreement under the FAA. The District contends federal law trumps Kentucky’s interest
because Plaintiff ’s employment was a transaction involving interstate commerce and that, therefore, the
FAA governs. During her employment, Plaintiff was
an Indiana resident. The NKADD is a subdivision of
Kentucky. As part of Plaintiff ’s employment, she sometimes made purchases for the District from out-of-state
vendors. Based upon these facts, the District argues
Plaintiff ’s employment had a substantial effect on interstate commerce and, thus, that federal law
preempts. If so, it requires her claims to be resolved by
a private arbitrator under the FAA.
Plaintiff responds that her employment did not directly impact interstate commerce to a degree that
could justify federal preemption. Plaintiff further asserts that she has a right to proceed in the courts of
the Commonwealth because her claims arise under the
Kentucky Whistleblower Act which provides specific

App. 34
Kentucky courts and juries with authority to impose
punitive damages as protections for retaliation against
whistleblowers. According to Plaintiff, this Act embodies sovereign policies codified by Kentucky’s legislature and is, therefore, beyond federal reach. Plaintiff
also asserts that Kentucky’s interest under the Whistleblower Act is even greater in this case because the
District is a state agency. She contends this is one of
the powers reserved by the States under the Tenth
Amendment to the United States Constitution. The
District argues that, pursuant to the Commerce
Clause, federal law overrides and supersedes Kentucky law under its Whistleblower Act and K.R.S.
§ 336.700.
The clash between federal and state sovereignty is
nothing new. The question as to whether—and to what
extent—the States’ policies are beyond the Federal
Government’s reach are controversies older than the
Federal Government itself. This same question ignited
the most intense debates during the Constitutional
Convention in 1787. The Anti-Federalists feared the
creation of a Federal Government that would usurp
the sovereignty of state legislatures. The Federalists
insisted that fear was unfounded and explained the
Constitution granted only a few limited powers to the
Federal Government. As a result of the ferocity and
passion shared by Anti-Federalists and Federalists
alike over the need to limit power of the Federal Government, the Framers chiseled boundaries into the
Constitution to alleviate all concerns. Nonetheless, as
this case demonstrates, the controversy persists.

App. 35
For support that Plaintiff ’s claims fall under interstate commerce and that, therefore, federal law
must govern, the District points to Wickard v. Filburn,
317 U.S. 111 (1942). The facts in Wickard involved
wheat growing quotas imposed upon farmers under
the Federal Government’s scheme to control production, prices and available volume of wheat worldwide.
Wickard, 317 U.S. at 115. Roscoe Filburn was a farmer
who participated in the government’s price supports.
He planted more wheat than the government allotted
and, as a result, was assessed a penalty for producing
a surplus. However, Filburn contended the excess
wheat was planted for use on his own farm and in his
own house and not for sale in interstate commerce.
Among other things, Filburn argued the penalty violated his due process rights by regulating his private
production and consumption—areas the Constitution
never granted to the Federal Government to regulate.
The U.S. Supreme Court held that, under the subsidy
program, Filburn’s wheat involved interstate commerce regardless of whether or not he sold it in commerce. This was so, it reasoned, because if Filburn used
it personally, he would not be buying wheat from the
market. Thus, the government would be thwarted in
its design in controlling prices because it could not control all quantities of wheat available.
The District argues that if wheat grown by Filburn
for his own use is a transaction in interstate commerce,
Plaintiff ’s employment is also. Indeed, if Wickard truly
stands for that broad of a premise, it would be difficult
to imagine any transaction or issue that could escape

App. 36
Federal Government control under the Commerce
Clause. However, such a result would contradict the
limitations that were so carefully crafted and so clearly
expressed in the federal Constitution. And if that result be so, then the patriots at the Constitutional Convention fussed and labored for naught. Patrick Henry
was the more resolute among Anti-Federalists. He so
feared tyranny by the Federal Government that he refused to go to Convention in protest. Printz v. U.S.,
521 U.S. 898, 921, (1997) (internal citations omitted).
Thomas Jefferson, also an Anti-Federalist but somewhat less adamant than Patrick Henry, agreed with
Henry in objecting to the Constitution—but primarily
because it lacked a Bill of Rights.2 In response, James
Madison (a Federalist who posterity later dubbed the
“Father of the Constitution”), argued that a Bill of
Rights would be redundant. THE FEDERALIST NO.’S 45,
39, and 52 (J. Madison) Madison insisted that the
States ceded only a “few and defined” powers to the
Federal Government under the Constitution and
that everything else—including the people’s natural
rights—remained off limits. Id. Madison explained
that, compared to the few powers delegated to the Federal Government, the powers retained by the states
were “numerous and indefinite.” U.S. v. Lopez, 514 U.S.
549, 552, (1995), quoting, THE FEDERALIST NO. 45 (J.
Madison). Even Alexander Hamilton, the Federalist
most trusting of the idea of a central government,
2

Letter from Thomas Jefferson to James Madison Dec. 20,
1787, quoted from The Life and Selected Writings of Thomas
Jefferson, edited by Adrienne Koch & Wm. Peden, pp. 436-38
(Random House, Inc.: 1944).

App. 37
insisted that the Federal Government’s powers were
limited. Hamilton wrote that there was no need to have
a federal Bill of Rights to “declare that things shall not
be done which there is no power to do.” THE FEDERALIST
NO.’S 84 and 83 (A. Hamilton). In fact, with regard to
the Commerce Clause, Hamilton stated that when a
law passed “ ‘for carrying into Execution’ the Commerce Clause violates the principle of state sovereignty” it is “merely [an] ac[t] of usurpation” and
“deserve[s] to be treated as such.” Printz, 521 U.S. 923924, quoting, THE FEDERALIST NO. 33 (A. Hamilton).
In this Court’s view, stretching the concept of interstate commerce to such an extent that Congress
could control any conduct that might conceivably have
a mere indirect effect on commerce violates the Constitution. If growing wheat for one’ s own use is interstate
commerce because the grower will buy less, then—
taken to the logical conclusion—blowing the whistle on
purportedly fraudulent purchase transactions by a
state agency may effect interstate commerce as well.
Arguably, in either case, there would be fewer sales.
The threshold question here is whether the Supreme
Court has in fact ruled such a mutation of the Commerce Clause is constitutionally permissible. If the
Supreme Court does violence to the Constitution in a
ruling, does that change the meaning of the Constitution? Such a ruling will likely be applied as announced
until corrected, but that does not necessarily make it

App. 38
constitutional.3 No, the Constitution expressly states
that it may be amended only as provided in Article V.
The Framers expected the States would oppose usurpations of the Federal Government—whether the encroachments were from Congress or any other branch.
This is clear from the Declaration of Independence,
The Federalist Papers, and the Kentucky and Virginia
Resolutions. According to James Madison, these documents form the “best guides” in understanding our system of government.4 The Declaration of Independence
lists as a ground for rebellion, the subjection “to a Jurisdiction foreign to our Constitution, and unacknowledged by our Laws.” Declaration of Independence,
¶¶ 2, 15. The Federalist dissertations repeatedly speak
in terms of the people of the State being “able to repel”
federal encroachments, either by being checked by one
or more other branches of the government, or by the
states, by judicial intervention, by elections, and finally, even by resort to force of arms. See, respectively,
FEDERALIST NO’S. 48, 78 and 46. And the Kentucky and
Virginia Resolutions proclaim the States may resist
and nullify acts and laws of the Federal Government
that exceed the Constitution’s limits. Clearly, an unconstitutional rule does not become constitutional
3

If the court were to hold two and two make five, would it be
so? Similarly, if it were to rule the world was flat, would it cease
being round?
4
Letter from James Madison to Thomas Jefferson, February
8, 1825. Transcription: The Writings of James Madison, edited by
Gaillard Hunt. (New York: G.P. Putnam’s Sons, 1900-1910).
Available at Library of Congress http://www.loc.gov/resource/
mjm.21_0028_0030.

App. 39
merely because it is applied. Specifically, Kentucky’s
Resolution states that:
[W]hensoever the General Government assumes undelegated powers, its acts are unauthoritative, void, and of no force: That to [the
federal Constitution] each state acceded as a
state, and is an integral party, its co-states
forming as to itself, the other party: That the
Government created by this compact was not
made the exclusive or final judge of the extent
of the powers delegated to itself; since that
would have made its discretion, and not the
constitution, the measure of its powers. . . .5
Opinions of the United States Supreme Court also
agree. As Chief Justice John Marshall explained, the
powers retained by the States at the time of the Constitution “remain” with the States and cannot be
abridged except as provided for “by that instrument.”
Sturges v. Crowninshield, 4 Wheat. 122, 193, (1819).
And 176 years after Sturges, the Supreme Court held
that, “[s]imply because Congress may conclude that a
particular activity substantially affects interstate commerce does not necessarily make it so.” Lopez, 514 U.S.
at 557. That court also stressed the need for the States,
as well as the Federal Government, to maintain “a
healthy balance of power” to “reduce the risk of tyranny and abuse from either front.” Id. at 552. As recent as 2008, a majority of the U.S. Supreme Court
5

Kentucky Leg. Act. passed house Nov. 10, 1798, unan.
passed Senate Nov. 13, 1798, signed by Gov. Nov. 16, 1798; available through Library of Congress at http://memory.loc.gov/cgi-bin/
query/r?ammem/rbpe:@field(DOCID+@lit(rbpe02101700)).

App. 40
acknowledged that the government established by the
Framers is to primarily “occur[ ] at local levels . . .
where people with firsthand knowledge of local problems have more ready access to [the] public officials responsible for dealing with them.” District of Columbia
v. Heller, 554 U.S. 570, 705 (2008). As the majority of
the Supreme Court in Heller admonished, even the
members of the Supreme Court “owe that democratic
process some substantial weight in the constitutional
calculus.” Id.
At first blush, the holding in Wickard might seem
to swallow State sovereignty beyond Constitutional
limits. However, despite appearances, this Court does
not agree Wickard is that broad. First of all, the Court
in Wickard indicates Filburn was receiving subsidies
under the same federal program he was challenging.
As the Wickard Court stated, “It is hardly lack of due
process for the Government to regulate that which it
subsidizes.” Wickard, 317 U.S. at 131. Even if this
Court reads more in that statement than the Wickard
Court intended, the Supreme Court has retreated from
the breadth of Wickard in subsequent decisions. For
example, in U.S. v. Lopez the Federal Government
pointed to Wickard in arguing it had authority under
the Commerce Clause to prohibit possession of firearms in school zones. The Government argued possession of firearms in school zones impacted commerce
because (1) the costs of violent crime is substantial,
(2) those costs are spread throughout the population
via the commerce of insurance, (3) violent crime reduces travel to areas where crime occurs, and (4) the

App. 41
presence of guns in schools undermines the educational process, impairs education, results in a less productive citizenry and, thus has an adverse effect on the
Nation’s economic well-being. Lopez, 514 U.S. at 56364. Thus, the Supreme Court in Lopez also analyzed
Wickard, calling it “the most far reaching example of
Commerce Clause authority over intrastate activity”
ever allowed. Id. at 560. But the Court nevertheless
held the federal law prohibiting guns in school zones
unconstitutional because that activity did not sufficiently impact interstate commerce to justify ceding
that authority to the Federal Government.
In Printz v. U.S. a sheriff challenged the provision
of the Brady Act that required law enforcement to conduct background checks prior to a citizen’s gun purchase. The dissent argued that handgun sales are
commerce and that it was “necessary and proper” for
Congress to regulate handgun sales and require the
background checks. Printz, 521 U.S. at 899. The majority held that, although Congress has authority to “regulate interstate commerce directly; it does not [have
authority] to regulate state governments’ regulation of
interstate commerce.” Id. at 924. Although none of
these cases expressly overrule Wickard, the holdings
distinguish and narrow its impact considerably.
Unlike Wickard, Plaintiff here has accepted no
subsidies from the Federal Government to limit wheat
production—or, as applied in her case, to limit her access to Kentucky Courts for enforcement of Kentucky
law. Kentucky’s Whistleblower Act does not involve interstate commerce but internal State policy over which

App. 42
Kentucky has a special concern. Plaintiff ’s case is
closer to Lopez than Wickard. Lopez held the “States
possess primary authority for defining and enforcing
the criminal law.” Lopez, 514 U.S. at 561. Similarly,
Kentucky has authority to encourage and protect whistleblowers in correcting perceived fraudulent conduct
in its agencies. And, as Printz held, Congress lacked
authority to compel sheriffs to perform background
checks on gun purchases, Congress lacks authority to
compel Kentucky’s courts to ignore the Kentucky
Whistleblower Act or K.R.S. 336.700. The Constitution
“contemplates that a State’ s government will represent and remain accountable to its own citizens.”
Printz, 521 U.S. at 920.
Therefore, despite Wickard and the FAA, this
Court disagrees with the District that Plaintiff ’s
claims under the Whistleblower Act are preempted by
the Commerce Clause. Even if the Arbitration Agreement was not void (as this Court has already held it
is), Plaintiff ’s claims do not have a substantial effect
on interstate commerce. It is the opinion of this Court
that the FAA enacted by Congress does not govern
Plaintiff ’s claims. Rather, Plaintiff ’s claims under the
Whistleblower Act are wholly within the province of
the Commonwealth of Kentucky and its police powers.
And, as Plaintiff has asserted, because the District is a
political subdivision of the State, Kentucky has even
greater interest in resolving Plaintiff’s Whistleblower
claims in Kentucky’s forum. This Court also agrees
that Kentucky has a greater interest in having its internal affairs litigated in its own Courts, transparently,

App. 43
in the light of day, and with its own citizens as jurors.
Plaintiff ’s assertion that the Tenth Amendment further commands that Kentucky’s Whistleblower Act
should govern is likewise well taken.
Whether Plaintiff ’s evidence will substantiate her
claims remains to be seen. But this Court finds the policy underlying the Kentucky Whistleblower Act is so
firmly rooted in the public interest that nothing in the
Commerce Clause can fairly preempt Plaintiff ’s claims
from proceeding in the Courts of this Commonwealth.
THEREFORE, IT IS HEREBY ORDERED
AND ADJUDGED that Defendant NKADD’s Renewed Motion to Stay and Compel Arbitration is DENIED.
DATED this 17th day of July, 2015.
/s/ Richard A. Brueggemann
RICHARD A. BRUEGGEMANN,
JUDGE
BOONE CIRCUIT COURT
CC:

ALL ATTORNEYS AND PARTIES OF RECORD
CERTIFICATE
I, DIANNE MURRAY, clerk of the Boone
District/Circuit Court, thereby certify that I
have mailed a copy of the foregoing order
and notice to all parties hereto at their last
known addresses or their counsel of record.
This 17

day of

July

, 2015

App. 44
DIANNE MURRAY
BOONE DISTRICT/CIRCUIT COURT
/s/ Patrick McGinley

D.C.

App. 45
COMMONWEALTH OF KENTUCKY
BOONE CIRCUIT COURT
DIVISION III
CASE NO. 14-CI-01622
DANIELLE SNYDER

PLAINTIFF

VS.
NORTHERN KENTUCKY
AREA DEVELOPMENT
DISTRICT

DEFENDANT

ORDER
(Filed Mar. 23, 2015)
This matter comes before the Court on the Defendant’s Motion to Stay and Compel Arbitration. The
Court having reviewed the Motion, Response and Reply, heard arguments from counsel, reviewed the Court
file, and being in all ways sufficiently advised, hereby
finds as follows.
On November 3, 2014, the Plaintiff filed a Complaint against the Northern Kentucky Area Development District (“NKADD”) alleging violations of the
Kentucky Whistleblower Act, K.R.S. § 61.102, et seq.
(“KWA”) and K.R.S. § 337.285. Plaintiff filed this Complaint without first utilizing the Arbitration Clause
she signed in conjunction with her employment at
NKADD. Defendant argues that her claims under the
Whistleblower Act clearly fall under the Arbitration
Clause and, therefore, this case should be stayed and
the Plaintiff should be compelled to participate in

App. 46
arbitration. The Defendant argues that the Arbitration
Clause is enforceable because it is governed by Section
2 of the Federal Arbitration Act (“FAA”) (9 U.S.C. § 2).
The Defendant cites to Perry v. Thomas, 482 U.S. 483,
489 (1987) in which the Court quoted the following
from Southland Corp. v. Keating, 465 U.S. 1 (1984):
“Thus in enacting § 2, Congress has withdrawn the
power of the states to require a judicial forum for resolution of claims which contracting parties agreed to
resolve by arbitration . . . ”
Defendant argues that the phrase “involving commerce” found in Section 2 of the FAA indicates that
Congress intended to fully exercise its authority under
the Commerce Clause. They cite to Russell v. United
States, 471 U.S. 858, 859 (1985) where the Court declared that “involving commerce” found in 9 U.S.C. § 2
was the functional equivalent of “affecting commerce.”
Therefore, they argue, the FAA applies because the underlying contract is one of employment, the NKADD
receives federal funding, and the Plaintiff was involved
in interstate purchasing while employed by the
NKADD.
The Plaintiff argues the FAA does not govern this
dispute because Section 2 of the FAA only applies to
contracts “evidencing a transaction involving commerce.” 9 U.S.C. § 2. They argue that 9 U.S.C. § 1 makes
it clear that commerce is defined under the FAA as
“commerce among the several States or with foreign
nations, or in any Territory of the United States or in
the District of Columbia.” Id. Additionally, the language of the FAA itself evidences Congress’ intent that

App. 47
the FAA should not extend to all contracts that may or
conceivably could affect commerce, but only to those
contracts that govern a transaction in commerce
among the several states.
The NKADD is a collaborative political entity created by the Legislature pursuant to K.R.S. 147.050(7)
to benefit the taxpayers of Northern Kentucky. Its purpose is to establish a regional planning counsel to act
in an advisory role on planning matters throughout
the legislatively created planning districts. K.R.S.
147.125(1). The arbitration agreement in question is
part of an employment agreement between the Plaintiff and her former employer NKADD. The NKADD is
not a vendor of goods, it does however administer and
oversee the Commodity Supplemental Food Program
and The Emergency Food Assistance Program. The
NKADD was created by the Commonwealth of Kentucky and is funded by state tax dollars for the purpose
of providing public planning services in the Commonwealth of Kentucky.
The Defendant argues that by the fact that this
agreement is one of employment, it should be governed
by the FAA because employment is a “general practice”
which substantially bears on interstate commerce,
drawing on a comparison to GGNSC Louisville Hillcreek, LLC v. Warner, 2103 U.S. Dist. LEXIS 178136
(W.D. Ky. Dec. 18, 2013). In GGNSC Court reviewed an
arbitration clause contained within a contract between
a nursing home and a nursing home resident. The
Court defined Hilcreek [sic] as a business providing certain
goods and services for a fee. The contract at issue in

App. 48
this case was a contract for goods and services, payment of which was funded, at least in part, by the resident’s Medicare or Medicaid. The Court held that
because the resident was funding the contract for
goods and services with federal funds, there was a
nexus to interstate commerce. Although the NKADD
receives federal funding, it is not paid for its goods and
services with federal funding. The Court finds the
nexus to interstate commerce as it relates to Snyder’s
claims is not met.
The Defendant also argues that because the Plaintiff purchased goods on behalf of NKADD, that action
created a nexus to interstate commerce. Many employees purchase goods on behalf of their employers from
out of state vendors. This is, in fact, commonplace, due
to the nature and growth of commerce in this nation.
This does not, however, automatically invoke the Commerce Clause. The Court in A.L.A. Schlechter Poultry
Corp. v. United States, 295 U.S. 495, 550, 55 S.Ct. 837,
851-52, 79 recognized the distinction between direct
and indirect effects of intrastate commerce on interstate commerce as a “fundamental one, essential to the
maintenance of our constitutional system.” Id. At 548,
55 S.Ct at 851. Activities that affect interstate commerce directly fall within Congress’ power; activities
that affect interstate commerce indirectly, such as
wages given to an employ [sic] by an intrastate business, are beyond Congress’ reach. Id., at 546, 55 S.Ct.
at 850. Congress may regulate local activity, but it
must have a substantial effect on interstate commerce.
See United States v. Lopez, 514 U.S. 549, 555-61 (1995).

App. 49
This Court cannot find that the Plaintiff ’s actions of
making purchases from out-of state vendors using
NKADD’s funds constitutes a substantial effect on interstate commerce. In light of the aforementioned, the
Court finds that the FAA does not apply here.
Plaintiff next argues that her claim is protected
by K.R.S § 336.700 and that K.R.S § 336.700 is not
preempted by the FAA. The Court finds this argument
well taken. The applicable portion of K.R.S § 336.700
states as follows:
“no employer shall require as a condition or
precondition of employment that any employee or person seeking employment waive,
arbitrate, or otherwise diminish any existing
or future claim, right, or benefit to which the
employee or person seeking employment
would otherwise be entitled under any provision of the Kentucky Revised Statutes or any
federal law.”
The purpose of the KWA “is to protect employees
who step forward to help uncover and disclose that information.” Davidson v. Commonwealth, 52 S.W. 3d
247, 255 (Ky. App. 2004). It is also remedial in nature,
by discouraging wrong doing in the government, and
protecting anyone who makes it public. Workforce Development Cabinet v. Gaines, 276 S.W. 3d 789, 792-793
(2008). To require arbitration of Snyder’s claim defeats
the nature and intent both of the KWA and K.R.S
§ 336.700.

App. 50
THEREFORE IT IS HEREBY ORDERED
AND ADJUDGED that that Defendant’s Motion to
Stay and Compel Arbitration is DENIED.
SO ORDERED THIS 20 DAY OF MARCH, 2015
/s/ James R. Schrand
JAMES R. SCHRAND, JUDGE
BOONE CIRCUIT COURT
COPIES TO: ALL ATTORNEYS AND PARTIES OF
RECORD
CERTIFICATE
I, DIANNE MURRAY, clerk of the Boone
District/Circuit Court, thereby certify that I
have mailed a copy of the foregoing order
and notice to all parties hereto at their last
known addresses or their counsel of record.
This 23

day of

March

, 2015

DIANNE MURRAY
BOONE DISTRICT/CIRCUIT COURT
/s/ K. Helton
D.C.

App. 51
Supreme Court of Kentucky
2017-SC-000277-DG
NORTHERN KENTUCKY AREA
DEVELOPMENT DISTRICT
V.

APPELLANT

ON REVIEW FROM COURT OF APPEALS
CASE NO. 2015-CA-001167
BOONE CIRCUIT COURT NO. 14-CI-01622

DANIELLE SNYDER

APPELLEE

ORDER DENYING PETITION FOR REHEARING
The Petition for Rehearing, filed by the Appellant,
of the Opinion of the Court, rendered September 27,
2018, is DENIED.
Minton, C.J.; Buckingham, Hughes, Keller, Lambert and Wright, JJ., concur. VanMeter, J., not sitting.
ENTERED: April 18, 2019.
/s/ John D. Minton Jr.
CHIEF JUSTICE

